                                                        NATIONAL SCIENCE FOUNDATCON
                                                            4201 WILSON BOULEVARD
                                                           ARLINGTON, VIRGINIA 22230.




                                                        --
                           OFFICE OF
                       INSPECTORGENERAL
                           MEMORANDUM

                           Date:      .     August 27, 1998


- - -- - - - - --
                           To:
                    - - -.- -- -

                           From:

                           Through:
                                   --- .-

                                            e-- .
                                            File No. I9609005 1
                                             -    --                    - -




                                                              Special Agent,
                                                                      -
                                                                              ---   - - ---


                                                                             Investigations
                                                                                              -- --- - -




                                                              Special Agent-in-Charge, Investigations

                           Re:              Close out

                           An NSF reviewer found that an SBIR Phase I proposal submitted by
                           duplicated work already funded by NASA two years prior. We investigated to determine
                                       had fraudulently obtained duplicate awards from different federal agencies to


                           We reviewed the NSF and NASA projects and found no evidence of duplication. During
                           the course of the review, however, we found potential duplicate proposals among two
                           Department of Defense (DoD) SBIR awards. We referred this case to the Defense
                           Criminal Investigative Service (DCIS) - Mid-Atlantic Field Office.

                           DCIS Special Agent                  reviewed the DoD proposals and found that the
                           company had                            of the other proposals. DCIS closed their file.

                           This case is closed.
